                                                                                                 June 5, 2014

Mr. Alan Shaffer
Principal Deputy
Office of the Assistant Secretary of Defense for Research and Engineering
Department of Defense


Dear Mr. Shaffer:

I am writing to request information concerning a study conducted for the Office of the Secretary of
Defense (OSD). The study is titled “Contextual Sociocultural Reasoning in Weak Signal
Environments,” and is being funded through a Small Business Innovation Research (SBIR) award to
Terrametrics, LLC.

The abstract on the SBIR website indicates that the objective of the study is to develop an
“automated decision-making tool” for “predicting the success of proposed military actions in areas of
interest and providing early warnings and alerts for activities that are precursors for hostile
responses, outbreaks of conflict, and breeding grounds for terrorism.” 1 Phase I of the study, which
had a budget of $147,427, 2 called for completion of a literature review, feasibility study and
research plan. 3 In Phase II of the study, which has a budget of $506,177, Terrametrics was tasked
with “developing a fully operational proto-type that was demonstrated as feasible under Phase I, and
that can go to commercialization.” 4

In responding to questions from prospective awardees regarding the purpose of the study, DOD
indicated that the automated decision-making tool would be used for “deciding how to expend a
finite set of resources . . . do you build a school, or a hospital, or a new road, and if a road, where
should it go?” 5 In response to a separate question concerning what data sources would be relevant
to the study, DOD stated that:

            “[T]the best scenario for one to pick is one where you can get a lot of data. If that city is in
            the US, fine. If that is Afghanistan, ok. 6

The DOD SBIR website also indicates that Terrametrics, LLC intended to base its research on
“examples from Sub-Saharan Africa, Afghanistan, and Pakistan.” 7



1   http://www.sbir.gov/sbirsearch/detail/662536.
2   http://www.sbir.gov/sbirsearch/detail/393723.
3   http://www.dodsbir.net/sitis/archives_display_topic.asp?Bookmark=41221.
4   http://www.sbir.gov/sbirsearch/detail/662536.
5   http://www.dodsbir.net/sitis/archives_display_topic.asp?Bookmark=41221.
6   Id.
7   Id.
The study described above and the Afghanistan research that Terrametrics, LLC conducted for this
study could help us determine whether reconstruction funds are being used efficiently to reduce
Afghanistan’s vulnerability to conflict and terrorism. According to section 1229 of the National
Defense Authorization Act for Fiscal Year 2008, Pub. L. No. 110-181, legislation establishing SIGAR,
one purpose of the Special Inspector General for Afghanistan Reconstruction is to identify problems
and deficiencies relating to the administration of reconstruction programs. Therefore, please provide
the following information related to the award to Terrametrics, LLC:

      •   All requests for proposals and other solicitations;
      •   All submitted proposals;
      •   The justification for the selection of Terrametrics, LLC;
      •   The award agreement;
      •   All deliverables completed under both Phase I and Phase II SBIR awards, including all
          reports, briefings, and any other documents;
      •   Any DOD or independent evaluation of the Terrametrics, LLC deliverables; and
      •   Documentation for how the Terrametrics, LLC deliverables were used by DOD.

Thank you very much for you cooperation in this matter. Please provide this information no later than
June 20, 2014. I am submitting this request pursuant to my authority under Public Law No. 110-181,
as amended, and the Inspector General Act of 1978, as amended. Please provide the requested
information to Jack Mitchell, Director of the Office of Special Projects, at
                                  or                   . Please contact him if you have any questions.




                                                              Sincerely,



                                                              John Sopko
                                                              Special Inspector General
                                                                for Afghanistan Reconstruction




SIGAR-14-63-SP Inquiry Letter: SBIR Study                                                         Page 2
